<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: STATUS OF KEY OPERATIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




         OVERSIGHT OF THE 2000 CENSUS: STATUS OF KEY OPERATIONS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2000

                               __________

                           Serial No. 106-161

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                   U.S. GOVERNMENT PRINTING OFFICE
67-019                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Jane Cobb, Staff Director
              Laura Chamberlain, Professional Staff Member
                           Amy Althoff, Clerk
                     Michelle Ash, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 14, 2000...................................     1
Statement of:
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office, 
      accompanied by Randolph C. Hite, Associate Director, 
      Accounting and Information Management Division, U.S. 
      General Accounting Office; and Robert Goldenkoff, Assistant 
      Director, General Government Division, U.S. General 
      Accounting Office..........................................    18
Letters, statements, etc., submitted for the record by:
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Letter dated August 20, 1999.............................    11
        Prepared statement of....................................    15
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office, 
      prepared statement of......................................    23
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     5

 
         OVERSIGHT OF THE 2000 CENSUS: STATUS OF KEY OPERATIONS

                              ----------                              


                        TUESDAY, MARCH 14, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2203, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller and Maloney.
    Staff present: Jane Cobb, staff director; Timothy J. Maney, 
chief investigator; Chip Walker, communications director; Erin 
Yeatman, press secretary; Lara Chamberlain, professional staff 
member; Amy Althoff, clerk; Michelle Ash, minority counsel; 
David McMillen and Mark Stephenson, minority professional staff 
members; and Earley Green, minority assistant clerk.
    Mr. Miller. Good morning. The Census Subcommittee has a 
quorum present. We will start with my opening statement, Mrs. 
Maloney and Mr. Mihm's.
    The census questionnaires have been mailed, and many people 
have already received them. Please fill out the form and mail 
it back as soon as possible. I can't overemphasize this enough 
to those sitting here and those watching on TV. Your friends, 
neighbors, local and State officials, local school boards and 
State universities, all areas of the private sector are 
dependent upon an accurate census. So when you get the 
questionnaire, short form and long form, take a few minutes to 
sit down and answer the questions and mail it back. America is 
counting on you.
    Today we again welcome the nonpartisan General Accounting 
Office before the Subcommittee on the Census. As I mentioned 
previously, the GAO's mission is to help the Congress oversee 
Federal programs and operations to assure accountability to the 
American people. GAO evaluators, auditors, lawyers, economists, 
public policy analysts, information technology specialists and 
other multidisciplinary professionals seek to enhance the 
economy, efficiency, effectiveness and credibility of the 
Federal Government both in fact and in the eyes of the American 
people.
    GAO accomplishes this mission through a variety of 
activities, including financial audits, program reviews, 
investigations, legal support and policy program analyses. GAO 
is dedicated to good government through its commitment to the 
values of accountability, integrity and reliability.
    Last week the Director of the Census Bureau was before the 
subcommittee and questioned the nonpartisan GAO and other 
oversight entities for what he termed real-time oversight that, 
in his mind, was not understandable. However, I would remind 
everyone that in the first major mailing of census materials to 
the general public, all 120 million prenotification letters 
were misaddressed, and the letter itself did not explain fully 
the purpose of the enclosed envelope to those who only spoke 
English, obviously a majority of the population. The Director 
has termed both of these errors as major embarrassments, and, 
as Mr. Ryan noted, the national 800 number was not printed on 
the forms. According to the Census Bureau, the 800 number was 
not available at the time the forms were printed. I must admit 
that I find this explanation highly improbable.
    In the wake of these errors, a strong argument can be made 
for more oversight, not less. And these errors also call into 
question the ability of the Bureau to conduct the ACE or 
estimation adjustment.
    Today the GAO will have its turn to defend its actions, all 
of which have been sanctioned by our subcommittee either 
jointly or independently. While Mrs. Maloney attacked our level 
of oversight and thought that it may be intruding on the Census 
Bureau's ability to conduct the census, many of the GAO reports 
have been jointly requested with her support or that of Mr. 
Waxman, the ranking member of the full committee. I also found 
it ironic that while Mrs. Maloney criticized the level of 
oversight and called it intrusive and burdensome, in her next 
breath she asked the Director to provide the subcommittee with 
yet another report, this time on the level of oversight and the 
amount of time that the Bureau takes to comply with the various 
requests for information.
    The stories in the wake of last week's hearing said that 
the spirit of bipartisanship had been broken. That is not 
entirely accurate. Both Mrs. Maloney and I have tirelessly 
promoted the census and will continue to do so. However, I am 
not in a position to tirelessly defend the Bureau at all costs. 
When deserving of praise, the Bureau should receive it, but 
when deserving criticism, it should also receive it.
    Those of us who sit on this subcommittee in Congress, and 
the President, are ultimately responsible for the census. The 
American people, and rightly so, hold the elected officials 
responsible for the actions of their government. This is the 
people's census, and we are the people's representatives.
    This subcommittee requests information because it believes 
that it is needed to make an informed judgment on the success 
of the 2000 census. On a regular basis the subcommittee is 
questioned on the status of operations by Members of Congress, 
constituents from around the Nation, and the press. Let's say a 
reporter or local government official calls and asks, for 
example, how, in my opinion, hiring is proceeding? Imagine the 
shock if my answer was, well, the Census Bureau tells me 
everything is fine. That would be not be the sign of a well-
informed chairman or a subcommittee doing its job.
    While the Bureau prefers to talk about the census in 
national terms, such as, ``Hiring is 4 percent ahead of 
schedule,'' that does not mean anything to a reporter or city 
official that calls from Dayton, OH, or San Antonio, TX. They 
justifiably want to know how they are doing locally. The Bureau 
may want to reevaluate the level of information that it 
provides on the local level. It seems that the media is in need 
of this type of information. Of course, it is not that the 
Census Bureau cannot provide local information. Soon every 
local government will have access to their mail response rates 
daily. It is hoped that this information will encourage local 
involvement and raise the 2000 mail response rate 5 percent 
above that of 1990.
    I believe that because hiring is such an integral part of 
the census, everybody should have access to this information. 
This information is not meant to embarrass the Census Bureau. 
To the contrary, it is meant to spur action. An example is what 
delegate Eleanor Holmes Norton has done right here in the 
Nation's Capital. After press reports on the hiring shortage 
here in D.C., she organized a job fair. That is a positive 
action by a local official who was made aware of a problem.
    This census has been a highly contentious one since the 
start of the decade. Both parties in Congress are examining it 
much closer than in previous decades. In fact, I would say the 
Nation as a whole is taking a much closer look. But if the 2000 
census is to be truly transparent, everyone should be able to 
see clearly through the window without obstruction.
    I am pleased to report that the Census Bureau has been very 
responsive to my requests for a meeting among the oversight 
parties, and that this meeting will take place after the 
hearing today. I hope all of the remaining issues will be 
resolved to everyone's satisfaction. I am also pleased to 
report that since I raised the issue with Secretary Daley 
almost 2 weeks ago, GAO has reported significant progress in 
obtaining the information it feels it needs to conduct thorough 
oversight.
    Today we will hear testimony in a number of key areas. The 
Census Bureau had to reconfigure the data capture system in 
order to capture 1.5 billion pages of data from 119 million 
households. I am very concerned that testing and development of 
this system has been behind from the start. I am also concerned 
that the new software and hardware has not been used in a 
simulated census environment.
    A key ingredient to the local census outreach efforts are 
the Complete Count Committees [CCC]. These committees are 
designed to do local outreach and promotion. However, many of 
the Complete Count Committees that we visited are frustrated 
from a lack of resources. One such CCC in a major county told 
the subcommittee that they were shocked when they were 
contacted by the Census Bureau's partnership specialists and 
asked to supply materials for an upcoming event and given a 2-
day deadline. Imagine the shock of the CCC. They understood 
that it was the Census Bureau that was supposed to supply the 
materials, not the other way around.
    And, of course, hiring remains a concern on this 
subcommittee despite the Director's assertion that ``I don't 
lose any sleep over it.''
I hope my concerns never bear fruit and, in fact, the local 
census offices are fully staffed for a nonresponse followup.
    Mr. Mihm, thank you for coming before the committee, and I 
look forward to your testimony.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7019.001
    
    [GRAPHIC] [TIFF OMITTED] T7019.002
    
    [GRAPHIC] [TIFF OMITTED] T7019.003
    
    [GRAPHIC] [TIFF OMITTED] T7019.004
    
    Mr. Miller. Mrs. Maloney, do you have an opening statement?
    Mrs. Maloney. Thank you, Mr. Chairman.
    Census day may be 18 days away, but the census has begun. 
Almost 100 million questionnaires are in the mail, and 22 
million more are being delivered by hand in rural areas. I 
received mine yesterday, and I urge all Americans to fill out 
their questionnaires and mail it back.
    As has been the case in our recent hearings, the news on 
preparations for the census is good, a point which can easily 
be lost in the details of a hearing. But if we look at the 
forest and not the trees, things are going pretty well. 
Particularly noteworthy is a new USA Today/CNN/Gallup Poll out 
just yesterday in which 96 percent of the respondents say they 
will mail back their questionnaires. I doubt it will be that 
high, but that is certainly an important indication of the all-
important mail response rate, and it is very good news.
    Beyond that, and as the testimony today shows, things are 
on track. All 520 offices are open and running. Though there 
are localized problems, recruiting is actually ahead of 
schedule nationwide at about 75 percent of the total needed. 
The questionnaires--all 120 million--are printed and actually 
being delivered by U.S. Post Office and Census Bureau personnel 
even as we speak. As Director Prewitt has emphasized, 
unexpected problems could develop tomorrow, but as of today 
things are running pretty well.
    Now, the chairman mentioned the problem in recruitment. I 
want to give the number to the public, 1-888-325-7733, as 
displayed here for people to call if they want jobs and want to 
help the Census Bureau.
    At our hearing last week, the issue of appropriate access 
of oversight entities to census 2000 activities and information 
was a major point of discussion. I do not want to belabor those 
issues, but I do want to clarify the record on a couple of 
points. First, the General Accounting Office and the Census 
Bureau were well on their way toward reaching an agreement 
regarding GAO's access to Bureau information before our last 
hearing. If this fact had been clear to all concerned, I think 
much of the discussion we had would have been avoided. There 
was not last week nor is there today a disagreement over access 
between the Bureau and GAO. I will let Mr. Mihm speak for 
himself, but I understand that all of these issues have been 
resolved. I also suspect that in a project of this size, scope 
and complexity, it is normal to have differences that need to 
be worked out and reviewed.
    Second, the guidelines on oversight which the Bureau has 
implemented were sent to the oversight bodies on December 16, 
1999, almost 3 months ago. As best I can tell, they represent 
the continuation of policies which have been in place for over 
2 years, and I am somewhat surprised that they have become an 
issue this late in the process. If there was a problem with 
these guidelines, and they are only guidelines, it should have 
been addressed long ago.
    Mr. Chairman, you have raised concerns about the access of 
our own staff and that of the Census Monitoring Board to field 
offices. While I would note that similar visits never happened 
during the 1990 census, they may have some value. But it is 
also important to understand that GAO and the Inspector 
General's staff are highly trained auditors and evaluators, 
working under strict professional standards and their own 
guidelines on how to conduct themselves in the field. Although 
these agencies act in a strictly nonpartisan manner, I have 
real concerns regarding the conduct of the Monitoring Board 
staff given their activities in the field to date and the fact 
that they are not subject to any similar guidelines for their 
conduct.
    I know that the chairman mentioned his concern regarding 
the need for representatives of the regions or headquarters 
staff accompanying subcommittee staff on their visits to local 
census offices. I just want to point out that this is far from 
unusual. The chairman and I both liken the census to a military 
operation, and I think that is a good analogy. I just want to 
point out that when Members of Congress or their staff go into 
the field to visit military installations, they are usually 
accompanied by half of the Pentagon, so I do not think that it 
is unusual or inappropriate to have representatives accompany 
our own staff. I know my staff has found the presence of 
regional staff helpful in understanding the census operations 
since many times they can answer questions that the local staff 
cannot.
    I do want to compliment the chairman on his idea of getting 
all of the principals together from the Monitoring Board, 
cochairs Ken Blackwell and Gil Casellas; the GAO, Mr. Mihm and 
perhaps Mr. Walker; the Commerce IG, Mr. Frazier; and 
ourselves, to personally resolve any issues that remain. As you 
know, that is exactly what Director Prewitt suggested in his 
letter of August 26 of last year to you in which he expressed 
his concerns regarding the demands of various oversight bodies 
and their impact on the Bureau's ability to conduct the census. 
I would like to put that letter in the record and, if I could, 
put this letter in and the one from February 8.
    Mr. Miller. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7019.005
    
    [GRAPHIC] [TIFF OMITTED] T7019.006
    
    [GRAPHIC] [TIFF OMITTED] T7019.007
    
    Mrs. Maloney. That letter of February 8 was directed to 
cochairs Blackwell and Casellas, asking for a meeting to ensure 
that their information requests were met. These hardly seem 
like actions of someone trying to, ``hide something.'' Even if 
these issues are settled at the staff level, I think a meeting 
of the principals could be very useful for all concerned and 
personally am ready to attend such a meeting.
    Mr. Chairman, while we are reviewing the issue of 
oversight, I want to pose a question. What are the oversight 
goals of this committee with respect to the census? Oversight 
to what end? Are we trying to make this census better, to 
develop plans for the next census in 2010? If we are trying to 
make sure that this census is the best it can be, then why 
hasn't the subcommittee responded to the major recommendations 
GAO had in their December report?
    The GAO gave us some concrete statutory steps to improve 
the pool of possible enumerators, which you have pointed out is 
still a concern in some small pockets around the country. I 
know that you strongly supported Mrs. Meeks' bill, H.R. 683, 
which would have allowed current welfare recipients to receive 
their benefits and work for the census at the same time, but 
the Majority Leader has refused to bring it to a vote on the 
floor. I also know that recruitment is still a concern in the 
LCOs in both our districts. I think responding to the GAO's 
suggestion incorporated in my bill, H.R. 3581, would make 
sense. If this subcommittee is committed to constructive 
oversight, we should act on those recommendations. Of course, 
the alternative to constructive oversight is to use it to play 
gotcha with the census in a continuing effort to try to stop 
the use of modern statistical methods.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T7019.008

[GRAPHIC] [TIFF OMITTED] T7019.009

[GRAPHIC] [TIFF OMITTED] T7019.010

    Mr. Miller. Mr. Mihm, if you would stand, Mr. Hite and Mr. 
Goldenkoff, and raise your right hands, and I will swear you 
all in.
    [Witnesses sworn.]
    Mr. Miller. Let the record acknowledge that they have 
answered in the affirmative.
    Mr. Mihm.

STATEMENTS OF J. CHRISTOPHER MIHM, ASSOCIATE DIRECTOR, FEDERAL 
   MANAGEMENT AND WORKFORCE ISSUES, U.S. GENERAL ACCOUNTING 
 OFFICE, ACCOMPANIED BY RANDOLPH C. HITE, ASSOCIATE DIRECTOR, 
 ACCOUNTING AND INFORMATION MANAGEMENT DIVISION, U.S. GENERAL 
 ACCOUNTING OFFICE; AND ROBERT GOLDENKOFF, ASSISTANT DIRECTOR, 
  GENERAL GOVERNMENT DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Mihm. Thank you, Mr. Chairman and Mrs. Maloney. It is 
once again a great honor and pleasure to appear before you to 
discuss the status of the 2000 census.
    March is one of the most crucial periods in the 10-year 
census cycle. Over the course of this month, the Bureau will 
deliver census questionnaires to the vast majority of the 
Nation's 120 million households. I also received my 
questionnaire yesterday. Knowing I would appear before you 
today, I made sure that I filled it out and mailed it in today. 
I would have mailed it in in any case, but I wanted to get it 
in today.
    The Bureau will begin to process millions of completed 
questionnaires at its four data capture centers located across 
the country this month. Outreach and promotion efforts will be 
at their greatest intensity. The Bureau's temporary work force 
will approach peak levels, and coverage improvement programs 
are to get under way.
    I am fortunate to be joined by two of my colleagues who 
have managed GAO's work on the 2000 census. Randy Hite leads 
GAO's work on the wide range of Federal technology issues, 
including the census; and Robert Goldenkoff has day-to-day 
responsibility for much of our work on census operations.
    Our statement focuses on developments that have occurred 
since we last testified before this subcommittee in February 
regarding essential activities such as, first, the outreach and 
promotion program; second, field followup operations, including 
staffing and coverage improvement; and third, data capture. In 
addition, I will discuss the steps the Bureau has taken to 
ensure that the census questionnaires do not contain the same 
misprint as was in the mailing addresses in the notification 
letters.
    However, before turning to those issues, I want to spend 
just a moment on the question of GAO's access to census 
operational information. Mr. Chairman, as you and Mrs. Maloney 
mentioned in your opening statements, we have reached agreement 
with the Bureau and implemented a process that I am confident 
will allow us to fulfill our role in supporting the bipartisan 
oversight needs of this subcommittee. This agreement with the 
Bureau provides us with access to the routine management 
information on the status of the census while importantly 
minimizing the burden on the Bureau. It is a new process that 
they established to make sure that it reduces the burden from 
the other process that they had been using. In reaching this 
agreement I want to thank the Bureau for its willingness to 
work with us on access issues, and the subcommittee in its 
efforts, and in particular you, Mr. Chairman, for the attention 
and support you gave us during this time. I deeply appreciate 
your efforts on our behalf on this issue.
    Turning now to the census outreach and promotion program, 
the Bureau has formed partnerships with organizations across 
the country to help promote the census. The Complete Count 
Committees, as you mentioned, Mr. Chairman, are a key component 
of the partnership program. They consist of local government, 
religious, media and other community leaders. Not surprisingly, 
in our conversation with members of these committees across the 
country, we are finding significant differences regarding the 
resources that they have available to promote the census and 
their level of activity.
    Regarding the support that the Bureau is providing these 
committees, the situation appears to be equally mixed. On the 
one hand, committee representatives we contacted were generally 
pleased with the assistance and guidance that they were 
receiving from the Bureau's partnership staff. The local 
committee representatives were also satisfied with the quality 
and quantity of the English-language material that they 
received from the Bureau. On the other hand, however, several 
committee representatives we spoke with said the amount of 
foreign-language materials, especially Spanish and Asian 
languages, were insufficient to meet their needs.
    In addition to the Complete Count Committees, the Bureau 
Census in Schools Program is intended to increase response 
rates by encouraging students to remind their parents or 
guardians to respond to the census. The Complete Count 
Committee and local census representatives we spoke to spoke 
highly favorably of the idea of promoting the census through 
the schools. Mr. Chairman, I know that you had very positive 
experiences at home in that regard.
    To date the Bureau has fulfilled orders for about 1.5 
million teacher kits for elementary, middle and high school 
teachers. However, problems have occurred in distribution of 
these materials. Orders for Census in Schools materials are 
taking between 2 and 4 weeks to be filled, according to the 
Bureau officials responsible for the day-to-day management of 
this program.
    An effective publicity and outreach program is important to 
boost mail response rates, which contributes to higher census 
data quality and reduces the staff needs and schedule burdens 
on the census. This leads to the second topic I would like to 
cover, census field operations.
    The Bureau's update/leave operation, which began on March 
3, was the first test of the Bureau's ability to staff its 
operations at near peak activities. Over 700,000 enumerators 
and other staff are now in the field conducting update/leave. 
However, to meet its nonresponse followup staffing needs, the 
much larger operation that is coming in just a few weeks, the 
Bureau needs to recruit an additional 700,000 qualified 
applicants to meet its overall goal of 2.4 qualified applicants 
by mid-April. Bureau data show that nationally, as of March 2, 
the Bureau had recruited 74 percent of the applicants that it 
needed. This was slightly ahead of the Bureau's national 71 
percent goal at that point. However, 7 of the Bureau's 12 
regional offices fell short of the 71 percent benchmark.
    Table 1 in my written statement shows the progress that 
census regions have made in meeting recruiting goals in 
February and in March. Most important, at the local level, 270 
of the Bureau's 511 local census offices fell below the Bureau 
benchmark of 71 percent. Of these 270, 22 had recruited fewer 
than half of the qualified applicants that the Bureau needed as 
of March 2.
    The regional and local census officials continue to 
aggressively recruit applicants. For example, the Census Bureau 
is working with communities to set up testing, meeting with 
local leaders, the Atlanta and several other regional offices 
are mailing postcards to targeted ZIP codes that have been 
identified as hard-to-recruit areas, and in some cases they 
have increased pay rates for enumerators and other staff.
    In addition to the followup efforts--efforts to followup on 
nonresponding households, the Bureau has included coverage 
improvement programs in the 2000 census that are aimed at 
increasing the count of the hard-to-enumerate populations. Two 
of these programs are the Bureau's walk-in Questionnaire 
Assistance Centers and the Be Counted Program. Bureau data as 
of March 1 show that a combined total of 46,000 Be Counted 
sites and Questionnaire Assistance Centers have been committed 
to be established. For perspective, this is about 3\1/2\ times 
the 12,600 McDonald's restaurants that are in the Nation. Being 
the father of small children, I am well-acquainted, I think, 
with about half of those restaurants.
    As we discussed in our February report to the subcommittee, 
the Bureau appears to be taking the steps needed to ensure a 
successful Be Counted/Questionnaire Assistance Center effort. 
They learned some key lessons from the dress rehearsal and are 
taking appropriate actions.
    Turning to the third topic I will discuss today, census 
data capture. As of today the Bureau reports that it has 
implemented the near-term system changes and completed all 
scheduled test events, including an operational test at each 
data capture center and a test of the four centers operating 
concurrently. Further, as of today the data capture centers 
have been operating for about a week, the first 2 days of which 
they checked in over 117,000 questionnaires. This workload 
represents about 8 percent of the daily workload expected later 
this month when peak operations kick in, when they will be 
processing 1.5 million questionnaires per day. Thus the actual 
operations and the data that we have thus far demonstrate that 
the centers are up and running, but they do not demonstrate 
those centers' readiness to operate at expected production-
level workloads. Moreover, the information that we have seen on 
actual operations does not address whether recent changes to 
the data capture system are functioning correctly. We, 
therefore, remain uncertain about the centers' readiness to 
meet the full production workload anticipated to begin in about 
2 weeks.
    Our prepared statement details uncertainty about the 
results of the Jeffersonville operational test, recent software 
changes, the Bureau's four-site operational test in late 
February, and other ongoing changes. In the interest of 
brevity, I will highlight the software changes and the four-
site operational test.
    As you know, Mr. Chairman and Mrs. Maloney, the Bureau has 
decided to adopt a two-pass approach to its data capture 
operations. To implement this two-pass data capture solution, 
two sets of software changes or releases were required. The 
first release, designed to support the first pass, that is when 
they will get the 100 percent data which will be used for 
apportionment purposes, was completed in early February. This 
work involved modifying software to write the long form to a 
storage unit rather than presenting it to keyers for immediate 
action. This release was in place for the final four-site 
operational test. While Bureau officials have stated that the 
changes were successfully implemented, the Bureau has not yet 
provided us with the procedures used for testing those changes 
and the results. As a result, we do not have the information 
needed to know with any certainty whether these software 
changes are performing as intended.
    The second issue deals with the four-site operational test. 
To help prepare for the actual data capture operations during 
the census, the Bureau and its contractors conducted a final 
operation test from February 22 to the 25th. The test was 
important because it involved production-level workloads at all 
four data capture centers as well as centralized corporations 
and Bureau headquarters simultaneously. However, the test was 
limited in that it did not include all of the data capture 
center operations such as the center's ability to sort, check 
in and prepare questionnaires for processing. Most of the 
questionnaires used in the test had machine-printed rather than 
handwritten responses with the same answers on each 
questionnaire, which would, of course, simplify keying demands.
    Our overall point is some data capture operations have not 
been verified with production-level workload at all DCCs. 
Specifically neither the Baltimore nor Pomona center have 
successfully conducted operational tests of their ability to 
support a production load for sorting or documentation.
    Finally, let me comment very briefly on the address list 
problem and the notification letter. Since this problem was 
discovered by the Postal Service last month, we have been 
examining the Bureau's check to make sure that the problem was 
not repeated on census questionnaires. Once they learned of the 
error, the Bureau officials said that both the Bureau and its 
contractors checked a sample of six types of questionnaires 
with the preprinted addresses to ensure that they did not 
contain the same misprint that was on the notification letters. 
No such errors were found by the Bureau. My written statement 
details the types of checks that the Bureau went through. In 
addition, we independently reviewed a very small sample of 
questionnaires. We went to four post offices in northern 
Virginia and found that they did not contain any of the same 
misprints as the advance letters.
    In short, it appears that the Bureau is well justified in 
its confidence that the address letter error in the 
notification letter is not present in the census 
questionnaires.
    In summary, Mr. Chairman and Mrs. Maloney, let me echo a 
statement that both of you made far better in your opening 
statements about the importance of public cooperation with the 
census. With census day just over 2 weeks away and census 
questionnaires already out in the mail, one of the themes that 
we have been highlighting throughout the decade has been the 
importance of public cooperation with the census. The mail 
response rate, a key measure of that cooperation, will be 
central to determining the overall accuracy and cost of the 
census. The response rate will, therefore, provide the first 
indication of the success of the 2000 census. A high mail 
response rate will reduce the Bureau's followup workload and 
relieve some of the staffing and schedule pressures the Bureau 
confronts.
    On behalf of this subcommittee, we look forward to 
continuing to track these and other census operations for you, 
and we will be available to report at any point. Mr. Chairman, 
this concludes my statement. My colleagues and I would be 
pleased to answer any questions you may have.
    [Note.--The GAO report entitled, ``2000 Census, Actions 
Taken to Improve the Be Counted and Questionnaire Assistance 
Center Programs,'' may be found in subcommittee files.]
    [The prepared statement of Mr. Mihm follows:]

    [GRAPHIC] [TIFF OMITTED] T7019.011
    
    [GRAPHIC] [TIFF OMITTED] T7019.012
    
    [GRAPHIC] [TIFF OMITTED] T7019.013
    
    [GRAPHIC] [TIFF OMITTED] T7019.014
    
    [GRAPHIC] [TIFF OMITTED] T7019.015
    
    [GRAPHIC] [TIFF OMITTED] T7019.016
    
    [GRAPHIC] [TIFF OMITTED] T7019.017
    
    [GRAPHIC] [TIFF OMITTED] T7019.018
    
    [GRAPHIC] [TIFF OMITTED] T7019.019
    
    [GRAPHIC] [TIFF OMITTED] T7019.020
    
    [GRAPHIC] [TIFF OMITTED] T7019.021
    
    [GRAPHIC] [TIFF OMITTED] T7019.022
    
    [GRAPHIC] [TIFF OMITTED] T7019.023
    
    [GRAPHIC] [TIFF OMITTED] T7019.024
    
    [GRAPHIC] [TIFF OMITTED] T7019.025
    
    [GRAPHIC] [TIFF OMITTED] T7019.026
    
    [GRAPHIC] [TIFF OMITTED] T7019.027
    
    Mr. Miller. Thank you for being here today and giving us a 
chance to discuss the status of the upcoming decennial census. 
Oversight is a critical responsibility of Congress, and there 
are four different agencies of the government involved in it: 
the General Accounting Office; the Inspector General of the 
Commerce Department itself; and from Congress, our staffs; and 
the Monitoring Board, which was created by Congress and the 
President back in 1998.
    Of taxpayers' money, $17 billion is involved in this 
constitutionally mandated requirement. We have a responsibility 
to make sure that the money is spent wisely and we get the best 
job possible, and that is what we are all concerned about. We 
appreciate your being here.
    I am delighted that there is going to be a meeting this 
afternoon to make sure that everybody is comfortable that they 
have access, because this has to be a transparent system. If 
there is not trust in the census, it threatens the whole system 
of government.
    Thank you for explaining why everybody should complete 
their form, because it does save the government money. The more 
people respond by mail, the less costly it is to followup. 
Otherwise you have to send people knocking on the doors. It is 
critical to every community, whether it is my hometown in 
Florida--what money flows to that city from Washington--or 
Tallahassee--is based on census data. So our own individual 
communities, whether it is education money, transportation or 
health care dollars, is based on census data or influenced by 
it, and so we need to do it, and so I encourage everybody to 
complete those forms.
    The first major mailing of the 2000 census was almost a 
failure. We are getting calls from people who are confused 
about the prenotification mailing. The letters were 
misaddressed, and there were no directions in English about 
what to do with the envelope. Also, the national 800 number was 
not included in the mailing. Director Prewitt called the first 
two problems an embarrassment for the Bureau.
    Let me ask you, what is your level of confidence that this 
problem won't occur again? Did the Bureau use focus groups to 
evaluate the particulars of that letter as far as the 800 
number? And what grade would you give the Bureau for its 
attention to detail and quality control at this stage?
    Mr. Mihm. If I heard them correctly, there are at least 
three questions in there. Let me deal first with the issue of 
the focus groups and then the level of confidence that we have 
and then get back to the grading.
    Dealing first with the question of the focus groups, it is 
our understanding, and we will be happy to do more on this, 
that focus groups were not used in this. The second mailing, or 
the decision to combine the notification and the notice that 
there was the availability of a non-English language 
questionnaire, came rather late in the census process. It was 
after the dress rehearsal, and so there was not extensive 
testing of this.
    One of the lessons that comes out of this, and certainly 
one that we have been urging throughout the decade, when you 
are doing the census, you don't want to be using untested 
procedures. That is why we have census tests and a dress 
rehearsal so that only the smallest fine-tuning is done for the 
actual census.
    I attended your hearing last week and I heard, too, the 
Director say that he was embarrassed and how unfortunate it was 
that those errors crept in. For us the lesson is the importance 
of testing, making sure all procedures and operations have been 
thoroughly tested before the census.
    In terms of the level of confidence that the Bureau should 
have in other census mailings, dealing specifically with the 
questionnaires, the Bureau checked six different types of 
questionnaires--and this was after they discovered the problem 
with the notification letters--checked six different types of 
questionnaires, short and long forms, and did not find the 
problem in any of these questionnaires. Given that it appears 
that the problem with the notification letter was a systematic 
error, that is, a programming error that occurred in all 120 
million letters, they didn't have to do randomized samples, you 
just had to do enough to make sure that it didn't occur in any 
additional cases. We didn't find any problems, and so it 
appears to us that the Bureau is well justified in its 
confidence that this has not crept into the census 
questionnaires.
    In terms of your third question on the grade, clearly there 
is a need for when all is said and done and the census is 
over--and we are going to be, at the request of this 
subcommittee and others, looking at the lessons learned from 
the 2000 census--to think about the quality control procedures, 
how they are constructed, and what sort of things that the 
Bureau looks at as part of its quality control. I think at this 
point it is probably an incomplete on the grade of the quality 
control standards, but that is the type of thing that we need 
to continue to look at, and we will on your behalf be vigilant 
as the census moves forward.
    Mr. Miller. I agree with the testing. In the pretest in 
Sacramento and Columbia, they did the second questionnaire?
    Mr. Mihm. Yes.
    Mr. Miller. We think that they should have had a second 
questionnaire, raise response rate 7\1/2\ to 15 percent, but a 
decision was made prior to Director Prewitt's tenure at the 
Bureau. The question is did they ever just pretest the 
prenotification letter by itself, or was it only at the test 
sites?
    Mr. Mihm. I will have to get you that information for the 
record.
    Robert, do you know offhand?
    Mr. Goldenkoff. No.
    Mr. Mihm. We will check on that. The decision to combine 
the notification letter and the availability--the notification 
that there be a non-English language form available did come 
coincident with the decision not to do a second mailing of the 
questionnaire.
    Mr. Miller. Why did they decide not to?
    Mr. Mihm. There are a number of reasons, according to the 
Bureau. One is that they say they received a large number of 
second questionnaires that were duplicates, and that it really 
overburdened the ability of their system to sort out and to 
check those duplicates.
    I know the Bureau was very influenced by a number of press 
articles that showed up in South Carolina in which people were 
quoted as complaining, ``I had just sent my form in, or I had 
received my form and right away they come back and hit me with 
another form.''
    This is something that is going to bear some scrutiny from 
us as an option that needs to be seriously examined for the 
2010 census. It is hard to imagine that a publicity and 
outreach campaign could not have been developed that would have 
said to people, ``If you got the first form, don't mail back 
the second.'' We all subscribe to magazines, and routinely get 
letters that say, ``If your payment and this bill have crossed 
in the mail, please throw this away.'' Thus, it was both the 
policy aspect as well as some technical aspects that caused the 
Bureau to be cautious on this.
    Mr. Miller. You mentioned in your opening statement that 
many of the access problems you experienced have now been 
resolved, and I am glad to hear that. However, can you please 
outline some of the problems that you encountered prior to 
their resolution and explain when and how these were resolved?
    Mr. Mihm. Our fundamental concern with the discussions that 
we were having with the Bureau was that it was seeming to take 
an inordinate amount of time and negotiation between us and 
very senior people at the Census Bureau. I heard and was taken 
by Dr. Prewitt's comments last week that he had to spend a 
third of his time on oversight issues, including requests that 
came from us. That is unacceptable, and we realize that. So our 
concern was that routine information that was readily 
available--that we knew from 1990 was readily available within 
the Bureau was taking a lot of give and take and a lot of 
negotiation. We had never been denied access to anything that 
we felt was important to get. We always came to a resolution. 
That is why I am so pleased with the new process that the 
Bureau has in place, we will be able to routinely get the 
information that we need with very little burden on senior 
census managers. I am very concerned in making sure that they 
don't view our data requests as burdensome to them.
    Mr. Miller. Right. No one wants to have the burden. But 
this seems like a bureaucratic tie-up every time you or anybody 
wanted information. They had to jump so many hoops. Why did you 
have to waste their time and your time when information was 
fairly readily available?
    Since you were involved in the 1990 census, would you 
compare your staff and access now to the way that it worked in 
1990?
    Mr. Mihm. In 1990, we had about similar levels of 
headquarters staff, about seven or eight people working full 
time. As I mentioned in introductions, I am very, very 
fortunate to have my colleague Randy and some of his staff be 
able to help out on the data capture aspects. The headquarters 
complement was about the same time as last time. In 1990, 
however, GAO was 35 percent larger than we are now. In 
reviewing the 1990 census, we had in five different regions 
about two and a half people working 3 or 4 months on the 
census, primarily during peak operations, that were responsible 
for looking at the implementation of the census. We had a team 
in New York, a team in Philadelphia, a team in Dallas, and a 
team in Kansas City and Los Angeles where we had staff, so 
there was a larger field presence last time.
    In terms of the access, the source of some of our 
frustration was that when we were negotiating with the Bureau, 
we knew from 1990 that the information that we were asking 
for--and they were not denying this, I don't want to imply that 
there was a disagreement of this--but we knew that this 
information was available in a readily consumable form. We were 
having trouble getting equivalent levels of access that we had 
in 1990. Now with the agreement that has been reached and the 
new process in place, we have much more access than we had in 
1990.
    Mr. Miller. I am going to let you go next, Mrs. Maloney.
    Mrs. Maloney. First of all, I would like to ask the 
audience and the panelists how many people received their 
census forms?
    Pretty good.
    How many mailed it back?
    We have got to get the response rate up here. We know that 
$2 trillion over the next 10 years is tied to census numbers. 
We know that it is very important for building our roads, 
bridges, and mass transit. All of government's funding formulas 
are tied to these numbers, so filling it out really is 
important to not only yourself and your own family, but to your 
neighbors and communities that they be counted in the census 
and counted in the funding formulas.
    First of all, I would like to make sure that there is no 
misunderstanding. Do you currently, Mr. Mihm, enjoy all of the 
access that you need? Are your questions being answered?
    Mr. Mihm. Yes, ma'am. As I mentioned, we are confident that 
the new process that has been put in place just within the last 
few days, because of the efforts of this subcommittee and 
certainly the Census Bureau, will provide us with the access we 
need to meet the oversight needs of this subcommittee. There 
will also be give and take, as you mentioned in your opening 
statement, on an operation this large about what is available 
and when we get it. But the routine operational information 
that describe how the census is going, is now available to us, 
and I am very pleased with that.
    Mrs. Maloney. You were involved in 1990?
    Mr. Mihm. At GAO.
    Mrs. Maloney. What was your role then?
    Mr. Mihm. I was the senior evaluator responsible for our 
reviews of the decennial census.
    Mrs. Maloney. Could you compare the access in 1990 to the 
access that you have now?
    Mr. Mihm. The access that is as a result of the new 
agreement is much greater than we had in 1990.
    Mrs. Maloney. Much greater?
    Mr. Mihm. Yes. As I mentioned earlier, part of our 
frustration when we were negotiating with the Bureau was that 
we were asking for information that we knew was readily 
available, and that was what was taking so long to get to us. 
Now, with this new agreement, it has minimized the burden on 
the Bureau and us, and allowing much greater access than we had 
in 1990.
    Mrs. Maloney. Could you elaborate on your greater access 
now? What didn't you have in 1990 that you felt like you 
needed?
    Mr. Mihm. Before I answer it directly, I don't want to give 
the impression that there was information in 1990 that we 
needed that we didn't think that we were getting. The Bureau 
with its new procedures this time has been very forthcoming in 
saying, here is not only what you are asking for, but here is 
some additional information which may be informative. They have 
been helpful in making sure and working with our people to make 
sure that we understand their cost and progress system, that 
is, what data will be available, what data will not be 
available and why that data won't be available. So it is just--
it has been a pleasure the last few days.
    Mrs. Maloney. I also understand that you feel that the 
guidelines for observers released by the Bureau about 3 months 
ago present no problems for your auditors since GAO has 
established protocols for dealing with these types of issues. 
Is that correct?
    Mr. Mihm. Yes, ma'am. The guidelines for us are not 
particularly relevant, and I don't mean that in a critical way 
about the guidelines. They seem to me to cut on a couple of 
categories. First, there is the series of things concerning 
basic collegiality, ``Don't expect rides from the airport, show 
up on time,'' we would hope that anyone would do that in any 
circumstance. Second, there is the separate set of points 
concerning how to conduct business, including making sure to 
not interfere with an enumeration while it is going on.
    We have a set of professional standards, the vernacular is 
in our yellow book, which allow us to certify that every job is 
done in conformance with generally accepted government auditing 
standards. These standards create a higher bar of 
professionalism and independence than the Bureau's Guidelines. 
There has never been a time when we have been talking to the 
Bureau about the importance of a field visit that the 
guidelines have come up or been referred to by us or Census 
Bureau. They are not a particularly relevant document for us.
    Mrs. Maloney. Did the Bureau ever use their guidelines in 
any way to deny you, GAO, or anyone else access to information?
    Mr. Mihm. I can't speak for anyone else. I know in our case 
we are quite confident and comfortable with the access that we 
have been able to get at the field level. We are able to make 
the trips that we need. One of the things that they ask for 
generally is a 2-week window before we make a visit. We have 
been able to give them those 2 weeks. If nonresponse followup 
is problematic in some isolated areas, and the subcommittee 
wants us to go to some areas, those aspects may be tested. But 
generally we have not had a problem with them, no.
    Mrs. Maloney. So they are generally just pro forma 
organizing tools. Show up on time, and you don't get a ride 
from the airport. You have never been denied information that 
you were trying to get in your professional----
    Mr. Mihm. In the case of the GAO, we have not had a problem 
with those.
    Mrs. Maloney. You have gotten all of the information that 
you have wanted?
    Mr. Mihm. Within the last few days, as a result of the 
efforts of this subcommittee and the efforts of the Census 
Bureau, we have come to an agreement which will allow us to 
assist you in your oversight efforts.
    Mrs. Maloney. The General Accounting Office is a 
nonpartisan accounting and evaluating arm of Congress, the 
principal watchdog of the executive branch. Your staff is 
highly trained and is subject to professional and governmental 
standards. Would you explain these standards to us?
    Mr. Mihm. Yes, ma'am. In order to certify reports as being 
done in conformance with generally accepted government auditing 
standards, very similar to the point that the chairman made 
last week to Mr. Prewitt about private sector auditing 
standards, there is a whole series of requirements that we have 
to go through embodied, as I mentioned a moment ago, in what we 
call our yellow book for the very sophisticated reason that it 
has a yellow cover, and it lays out for us as auditors and for 
other auditors who want to do things in conformance with 
government auditing standards the very specific practices that 
we need to go through.
    In addition, we have a set of core values that we have to 
adhere to, which the Comptroller General has reinforced, of 
accountability, integrity, and reliability.
    We have a set of congressional protocols, which I know have 
been shared with your offices, on how we deal with the Hill and 
how we deal with requests, and so we have a large body of 
requirements that we have to follow in that regard.
    Mrs. Maloney. On the substance of your report, Mr. Mihm, 
your testimony reflects GAO's usual thoughtful job. It points 
out a number of what I would call minor problems. Certainly 
there doesn't seem to be anything which could threaten the 
success of the 2000 census?
    Mr. Mihm. As I mentioned at the end of my statement, the 
single greatest thing which has us concerned is fundamentally 
beyond the control of the Bureau, and that is the mail response 
rate. If we can, and the Census Bureau, and the efforts of this 
subcommittee and everyone else can get that mail response rate 
high, then the Bureau is in very good shape.
    I know I don't need to remind the subcommittee, but when we 
are dealing with such large numbers, even small marginal 
differences can have huge implications for the census. A 1-
percentage point difference in mail response rate is about 1.2 
million cases, and as Director Prewitt testified a couple of 
hearings ago, if they are off more than 2 or 3 percentage 
points, then there is trouble.
    Now, that is one area that is not within the Bureau's 
control. Within the Bureau's control there is the issue of the 
DCS 2000, which is their data capture system. I am going to ask 
Randy Hite, who is the expert on this, to comment on it.
    Mr. Hite. I would just add one point, the second pass 
operation for the data capture process, that is the changes 
that need to be made to DCS 2000, have not been made yet, so 
that is a development effort that still remains to be done. And 
as with any software development effort, you have risks 
associated with it, so that it is an unknown right now, and 
that is still an item that would give us some concern at this 
point in time.
    Mrs. Maloney. Well, overall would you say--when I read your 
testimony last night and heard it today, it seemed like 
everything seemed to be on target and going well and going 
forward. Is that your assessment of the census today?
    Mr. Mihm. I think in key areas things are going well. The 
Questionnaire Assistance Centers and Be Counted Program, that 
seems to be working very well. They have learned some lessons. 
They have localized staffing shortage. Over half of the 
district offices or local census offices have not met 
recruiting guidelines, but they are taking actions to address 
that, and that is the important point there.
    As I just mentioned, though, on the other hand, there is 
reason for caution in the mail response rate, if we can keep 
that high, and as Randy mentioned with the data capture system, 
there is still some real uncertainty there.
    We are just now beginning to see the processing of the 
data, and they are not at anywhere near processing peak data, 
the questionnaires are not there. It is not a fault of the 
system, so we don't know yet how they are going to work. There 
are a number of uncertainties with data processing. I don't 
know if you want to add some more on that.
    Mr. Hite. We don't have data now that shows that there is a 
problem, but part of our concern rests with the fact that there 
are data that we have not seen yet, not that the Bureau has not 
been forthright in providing it, it is not available for some 
of the tests which have been completed and data associated with 
the performance of the system, DCS 2000, during actual 
operations.
    Part of GAO's job is turning hearsay into facts so you can 
do the oversight that you do, and right now we don't have 
that--the basis for drawing those kinds of conclusions for you 
at this point.
    Mrs. Maloney. I understand from the chairman that we are 
going to take a field trip to the data processing center so we 
can see firsthand for ourselves.
    Mr. Miller. I hope to.
    Mrs. Maloney. Mr. Mihm, your testimony does not mention 
many activities currently under way, such as the update/leave, 
the telephone assistance, the Internet response, activities in 
remote Alaska and other update enumerate areas, preparations 
for the accuracy and coverage evaluation, and all of these are 
currently in progress. I assume the fact that because you 
didn't mention these activities, that they are on schedule and 
going forward appropriately?
    Mr. Mihm. No, ma'am. These are very important operations, 
update/leave and remote enumeration in Alaska. We have been 
focusing on what in the past have been the key vulnerabilities 
to a successful census. The mail response rate for the vast 
majority--the 96 percent of the households that have a mail-
out/mail-back--the nonresponse followup efforts, staffing for 
the nonresponse followup processing, for overall, if the Census 
Bureau is successful in those efforts, the census will be 
successful. If they are not successful in those efforts, 
unfortunately, overwhelming success in some of these other 
efforts will not pull them through. So it is more of a 
reflection of what are the key vulnerabilities to the census.
    Mrs. Maloney. Thank you.
    Mr. Miller. Mr. Mihm, I am glad to hear that the Bureau, 
after, I think, my discussion with Secretary Daley and with 
Director Prewitt, has brought about a new openness. There is 
nothing to be hidden in here. We need to have the transparency. 
I hope this meeting will resolve any concerns.
    One of the concerns that was raised early on was when I saw 
these guidelines--I can see the case where all of a sudden 
there is a lot of fraudulent filling out of forms and other 
things going on, and if you have to give 2 weeks' notice to 
visit a community, wait a minute. You have to plan your flight 
schedules and hotel rooms and things like that, but you need to 
have the flexibility to respond where there is a problem. If 
there is a problem in Jeffersonville, you need to identify 
that.
    How do you sense these guidelines compare? Would Arthur 
Andersen have accepted these guidelines?
    Mr. Mihm. Well, the Comptroller General is a former 
managing partner at Arthur Andersen, so I have to be careful 
how I answer that.
    In my experience they are unusual for other agencies. I 
don't often, when I examine other agencies, and in our 
discussions I mentioned I have looked at quite a few in other 
aspects of my work, see something like that. However, the 
census is a very unusual undertaking in that it is so 
nationally diverse, the Bureau's dealing with so many temporary 
employees at various levels, and this is not to excuse or 
justify something if you have concerns, it is just to say that 
there may be explanations why they have it in this case and I 
don't see it in other cases.
    Another way that it is different in assessing the census is 
the real-time aspect. Much of GAO work is less real time than 
working on the decennial census. Perhaps the closest analogous 
situation could be the work that we do during filing season for 
the IRS. We do a great deal of real-time assesments of tax 
filing. I haven't spoken to my colleagues whether they have 
anything similar to this in their work.
    Mr. Miller. The Census Bureau made it out of the field 
ahead of schedule during the dress rehearsal. This seemed to be 
at the expense of accuracy since the level of proxy data was as 
high as 20 percent. What was the level of proxy data in 1990, 
and has the Bureau decided on a maximum level for 2000? What do 
you think are acceptable levels of proxy data?
    Mr. Mihm. One of the things that is unfortunate from the 
data capture operations in 1990 is we don't have a good number 
for the amount of proxy data in 1990. The Bureau did record 
what they called ``last resort data,'' which is their final 
attempt to get data, and presumably some of that or even a lot 
of that may have been proxy data, but nobody knows for sure. We 
do know, though, in some large urban local census offices, in 
1990, upwards to 20 percent of the nonresponse followup 
enumeration was done using the proxy data. Unfortunately, the 
highest office in the Nation was the northeast Manhattan office 
where 42 percent of the nonresponse universe was enumerated 
using last resort and presumably proxy data in 1990.
    The Bureau's goal for 2000 is to have 6 percent of the 
universe be proxy data, and this is why it was such a concern 
that in all three locations during the dress rehearsal they 
were significantly outside of that number during the dress 
rehearsal--as you mentioned, 20 percent in Sacramento.
    Mr. Miller. Why did they allow such high proxy data during 
the dress rehearsal?
    Mr. Mihm. It is an issue that we are still talking to the 
Census Bureau about, and there has not been a thorough 
evaluation, in our view, of the causes of this high usage of 
last resort or proxy data during the dress rehearsal.
    As you mentioned in your question, it at least was helpful 
in getting out of the field early in the various locations or 
on time in the various locations. The Bureau believes, though, 
that part of it was just a failure at the enumerator and crew 
leader level to adequately follow procedures. So what they are 
trying to do is reinforce the procedures and the importance of 
going through the six contacts, at least three of those must be 
personal visits, before you do proxy data. That should be 
helpful. We would have preferred to see a fuller examination, I 
think, of really what were the causes to make sure that it was 
a lack of following established procedures.
    Mr. Miller. As you know, the use of proxy data can affect 
the quality of the census that we have, so it is very important 
as we go through this, if we are using too much proxy data, we 
need to be aware, and that is one of the things that we need to 
find out as we approach that proxy data period, which is in 
June.
    Mr. Mihm. Toward the end of nonresponse followup.
    Mr. Miller. You stated that with the update/leave you have 
fewer problems with recruiting because they can hire 
immediately.
    Mr. Mihm. Yes, sir.
    Mr. Miller. How long have some individuals sat in the 
applicant pool, and why is this important for hiring, because I 
am hearing from last week that people get hired in January, and 
they don't get the phone call until May. How much of a problem 
is that shelf life of that applicant pool?
    Mr. Mihm. It can be a significant problem or challenge for 
the Bureau in that they establish very ambitious recruitment 
goals which require a ramp-up in order to meet.
    Referring to our statement, we found in discussions with 
local census offices, where that office's update/leave 
operations is under way, they are the ones that are most ahead 
on recruitment because they are able to offer a job 
immediately. If you come and take the test and you pass the 
test, the Bureau would be able to say the job is available 
right now. For a nonresponse office the wait may be up to 
several weeks. This is at least part of the reason that the 
Census Bureau needs 9, 10, 11 applicants for every position. 
When they begin to hire, they burn through those lists of 
qualified applicants very, very quickly. The Bureau tends to 
find that if an applicant was looking for a second job, he or 
she will have found a job somewhere else, will have lost 
interest in the census, or will have forgotten that they have 
even applied to the Census Bureau. That is one of the reasons 
that they burn through the list of applicants very, very 
quickly.
    Mr. Miller. Let me switch to the data capture system, 
because you have been expressing concern about that for a month 
now. What is your current assessment of the risk of developing 
the new two-pass system for data capture?
    Mr. Hite. I will deal with the second pass first. Part of 
our concern there deals with any software development effort 
where you have a cadre of core software engineers that are very 
intimate with the behavior of the software, and those people 
are invaluable, and you want those individuals involved in any 
changes to the system as well as involved in the operations of 
the system. Well, the approach that the Census Bureau was going 
to take for data capture operations was to have those parties 
available as part of technical support during data capture 
operations because they are so important. But now with the move 
to the two-pass, concurrent with first-pass data operations, 
census will have to be developing the second-pass software. So 
those core software engineers are going to be diverted to the 
development effort for the second pass.
    The Census Bureau has said their primary priority is going 
to be supporting ongoing data capture operations, but 
nevertheless, you are taking a group of very important 
resources, and you are spreading them across two activities, 
and so you are stretching your resources. There is a resource 
risk there.
    If you look at the schedule that has been established for 
the development and the conduct of the first pass, the testing 
of the second pass, and the initiation of the second pass, 
there is very little tolerance for any slippage in the 
schedule. As soon as first-pass operations conclude, then 
census needs to have tested the second pass, so that it is 
ready to begin second-pass operations. So, for example, a lower 
response rate that could cause first-pass operations to be 
extended is going to have an impact on second-pass operations 
beginning on time.
    That is the primary risk that I see with regard to the 
second pass. With respect to the first-pass operations, I don't 
have data now that shows me that I shouldn't have confidence in 
the performance of the first-pass software, but then again, I 
don't have the data that I need in order to have that 
confidence. I need to see the results of the software 
integration test or the system integration test, and we have 
not seen that yet. The first-pass software was exercised as 
part of the four-site OTDR, the operational test, and we 
haven't yet gotten the report on the results of that test. So 
we need to see that kind of data in order to put us in a 
position to have confidence about the performance of the two-
pass software.
    Mr. Miller. Why haven't you received that? Is there a 
delay, or is that a problem?
    Mr. Hite. There is a normal period that transpires from the 
conclusion of the test and the development of the test report, 
and I believe in the case of Census it has been about a 30-day 
period for that, and that is not unusual.
    My understanding is that, for example, the Jeffersonville 
OTDR report was to be available or sent to Census Headquarters 
May 6. We have not received that yet. I don't have a date off 
the top of my head when the four-site OTDR report was to be 
available, but we expect to have that request fulfilled when 
that report is available.
    Mr. Miller. The second-pass data, is that the long form 
data?
    Mr. Hite. The way it works, the second pass will retrieve 
the long form images from a disk storage, and from those long 
form images they will present to the image keyers the fields 
where there is low confidence so that those keyers can correct 
that data. So it does deal with the long form images. However, 
during first-pass short form as well as long form, images are 
optically read, and that data are forwarded to Census 
Headquarters. And they are the correct data that are produced 
during the second pass that are also forwarded to headquarters 
and will supplant the data that was forwarded to headquarters 
as part of the first pass.
    Mr. Miller. How comfortable are you that the optical 
reading, the whole process from A to Z, unloading it from the 
trucks, processing them through, scanning, filing, capturing 
the data and the handwritten forms, how comfortable do you feel 
that it is going to work?
    Mr. Hite. You have to break it up into each of the steps. 
With some items I am quite confident. The optical character, 
the optical mark recognition, I think the testing has proved 
that to be within accepted bounds.
    With regard to the check-in, the sorting at production 
levels, that depends on which site we are talking about, 
because at some sites it was tested, and it was successfully 
tested, and they demonstrated their ability at those levels. It 
was not successfully tested at Pomona and Baltimore. There we 
have questions.I21The scanning of the images at production 
levels, that is what the four-site OTDR was to give us. We 
understand that there were production levels put through the 
system. There are issues about the key from image productivity 
rates at some OTDRs. For example, at Phoenix, those rates were 
achieved. At Pomona they were not. At the four-site OTDR, 
because of the nature of the forms which were used, which were 
basically forms with preprinted information, all the answers 
being the same, you are not going to get a true read of the key 
from image rates because it reduces the demands on key for 
image such that the keyer sees the same section of the form to 
correct any keying from.
    So it is variable depending on what steps in the process we 
are talking about. It is variable depending on what sites we 
are talking about.
    Mr. Miller. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Throughout this, shall we say, effort to get 
an accurate census, recruitment has been a tremendous concern, 
given the extremely strong economy and the low unemployment 
rate, and, in fact, the Census Bureau is still hiring, and you 
can call if anyone is unemployed and needs a job at 1-888-325-
7733, or you can check the Census Bureau's Internet site at 
www.census.gov/jobs2000, so we can try to get more people 
informed to go to these jobs to bring this recruitment effort 
up.
    But as of March 2, 2000, recruiting nationally is slightly 
ahead of schedule; that seven regions are below their goals and 
five are above; that 22 of 520 local census offices are 
experiencing severe recruitment problems. Is this fairly good, 
or how does this compare to 1990, the recruitment levels?
    Mr. Mihm. I think it is a good story at least thus far, and 
we will have to see how things pan out when they actually begin 
to hire. Certainly the number of offices that appear to be in 
the severe category, which is, granted, not a term of art, is 
smaller this time around. They vary in numbers, we are looking 
at 22 offices, and the Census Bureau is tracking a bottom 50. 
Last time in 1990, there were over 100 offices that were 
experiencing some difficulties, or it appeared that they would 
be experiencing some severe difficulties.
    I guess the concern is and has always been that at a 
national level you are going to do well. Nationally you can 
meet these goals in recruiting and hiring. The challenge to the 
census is to be able to hire people across the country. There 
is no other employer that has to hire people in every 
neighborhood in the country. That is the tough thing that they 
face. They have made a strong commitment, which we completely 
agree with, for data quality reasons they want to hire people 
to enumerate their own neighborhoods. Thus, extra applicants in 
one part of town will not help the Bureau in another part of 
town. That is the challenge that they faced in 1990, and they 
still face in 2000.
    Mrs. Maloney. The Bureau takes a number of steps to address 
local recruiting problems which you outlined in your testimony. 
Do they seem adequate to you?
    Mr. Mihm. Yes. They seem to be taking important and 
aggressive action to address these, and I should have added 
this is one of the important differences I think this time 
compared with 1990. Certainly in 1990, when they had problems, 
they would go out and take actions. But this time there seems 
to be a much more focused effort in identifying low-performing 
local census offices going in and using targeted recruitment 
mailings, in some cases raising pay rates for enumerators--that 
is something that they obviously only want to do as a last 
resort--bringing in swat teams to help with that recruitment. 
There are a whole series of efforts that they are undertaking 
at a local and regional level.
    What we will see over the next 3 weeks is whether this 
extra intense effort is actually going to make a difference. We 
will be tracking those offices as well the Bureau.
    Mrs. Maloney. So it seems that they have learned from the 
problems of the 1990's and have taken concrete steps to address 
it.
    Can you think of anything that the Bureau should be doing 
that it is not doing to help in recruitment?
    Mr. Mihm. We do not have an open series of recommendations 
on what they should be doing in the recruitment area. The only 
matter that we offered up for Congress's consideration was 
possible legislative exemptions. The Bureau, as I mentioned in 
my statement, is pursuing at least some of those dealing with 
welfare or TANF down with State governments, and it is 
reportedly making some progress in that regard.
    The fundamental challenge that the Bureau faces in terms of 
recruitment is the nature of the census job, it is not the most 
attractive. It is short-term and temporary, obviously. It 
doesn't have benefits. Although it is very important for our 
Nation that this work be done, it is a hard sell due to the 
combination of the nature of the job and labor markets.
    Mrs. Maloney. I introduced legislation to respond to your 
last report, H.R. 3581. You mentioned the TANF problem, which 
Congresswoman Meeks has worked hard on in trying to allow 
current welfare recipients to receive their benefits and work 
for the Census Bureau. One of the problems of dealing through a 
State system, some States will not take those steps. My own 
State has not taken that step, so Federal legislation would 
greatly help. I know that the chairman supports these efforts. 
We could do this in a bipartisan way and expand the field of 
possible workers for the Census Bureau, by also allowing 
military personnel to take these jobs. So that is one thing 
that we could do in a positive way to help and to respond to 
GAO, and I hope we will be able to move that this year.
    Anyway, Mr. Hite, to go back to you on the data capture, 
you discussed the decision to move to a two-pass system and 
some of its implications. My understanding is that the decision 
to move to the two-pass system resulted from the key from image 
productivity rate. It seems like a sound decision, but what is 
your view?
    Mr. Hite. The two-pass solution is one of three options 
that the Census Bureau considered, one option of which is to do 
nothing, which is always an option, but was unacceptable. The 
two-pass approach is technically feasible. It is a reasonable 
approach.
    The key to any type of approach or any type of plan or 
solution is the implementation of it. With any implementation 
there is risk associated with it. I have no objection to the 
approach that they have taken. The key will be to make sure 
that it is implemented according to schedule and according to 
specifications so that it functions as it is intended to do.
    Mrs. Maloney. Wasn't the February test a full load on the 
testing?
    Mr. Hite. The four-site test yes, it was production-level 
workloads first being scanned through the system to create the 
digital images, and then for the data to be captured through 
the optical recognition, and then forwarded on to headquarters. 
It also involved, as I mentioned, the changes for the first-
pass software so that the images for the long forms--I'm sorry, 
the sample data associated with the long forms could be written 
to disk for storage until they would be needed for the second 
pass.
    They also tested some centralized operations, the central 
coordination center, the technical support, the individual site 
support. So it tested a number of things. The test is very 
important, and hence we look forward to seeing the test report.
    Mrs. Maloney. Earlier you stated that you were uncertain 
about the data capture centers' readiness to meet full 
production-level workloads. Can you describe what is a full 
production-level workload?
    Mr. Hite. The volumes that the data capture centers expect 
to be able to process during peak production are roughly 1.5 
million forms per day. Thus far we are looking at 17,000 based 
on the first 2 days of operation. The 1.5 million are the 
production-level volumes, and, as I understand it, for the 
four-site OTDR, the volumes were upwards of 2 million, so they 
were pushing production-level volumes through the system 
beginning with the scanning process, but it didn't include the 
check-in and the sorting and the preparation of the forms prior 
to the scanning beginning.
    Mrs. Maloney. I was under the impression that all of the 
four centers were supposed to be as identical as possible. Is 
that correct?
    Mr. Hite. The centers are identical in terms of their 
configuration. They will all rely on clusters, but the number 
of clusters vary depending on the expected workloads. In the 
case of any type of operation that relies on human beings, the 
centers are going to be different in that the people operating 
the system are different. And in the case of some centers, some 
forms will be processed--for example, the Jeffersonville data 
capture center--that are not being processed at other centers. 
So there are some differences, but from a physical 
configuration standpoint, yes, they are the same.
    Mrs. Maloney. Based on what you know today, do you have any 
reason to believe that the data capture centers or systems will 
not perform as expected?
    Mr. Hite. No, ma'am. As I mentioned, I don't have the basis 
to believe that they are not going to perform as expected. I 
need to see information for me to say that I have confidence 
that they will perform as expected, and I haven't seen that 
information yet.
    Mrs. Maloney. What additional information do you need?
    Mr. Hite. I would like to see the software integration test 
results and procedures for the first pass, the systems 
integration test procedures and results. I would like to see 
the test report for the Jeffersonville OTDR, and the test 
report for the four-site OTDR.
    Mrs. Maloney. Would you describe that test for us?
    Mr. Hite. The four-site OTDR?
    Mrs. Maloney. Yes.
    Mr. Hite. This was a test of all four DCCs operating in 
conjunction with headquarters operations in processing 
production load volumes of questionnaires. The test began with 
the scanning operations, the forms being fed into the scanner 
to create a digital image of those forms, the forms to be 
optically read for the marks and the characters, and for those 
data then to be prepared and formatted for transmission to 
census headquarters and confirmation of the receipt of that 
information. It also involved a number of support activities 
associated with the data capture operations, including onsite 
technical support and centralized technical support, the 
operational control center and headquarters.
    Mrs. Maloney. Thank you. It is good to hear that you expect 
them to perform as expected.
    Thank you, Mr. Chairman.
    Mr. Miller. I will ask a couple of short questions.
    Of the two-pass system, what impact does that have on the 
cost and any delay of data release?
    Mr. Hite. With regard to cost, there is a marginal cost 
associated with the two-pass operation. We do not--we have not 
yet received an estimate on the total cost associated with 
that, but I can tell you the cost number that I have seen 
associated with the development contractor making the changes 
to the system, and in that case I have seen a $35.2 million 
figure, which would include $10 million for the disk storage, 
for storing the digital images awaiting the two-pass process, 
and also for the software changes associated with the two-pass 
approach. There is also cost associated with a tape 
verification back-up system. There are additional costs 
associated with keeping the data centers open and operating 
longer, but we have yet to receive a cost estimate on that.
    Mr. Miller. And the delay of the data release, is that 
going to be impacted?
    Mr. Hite. Chris, I don't know if you want to comment on 
this or not, but we have been told by Census that it is not 
going to have an impact. We don't have any independent 
information on that.
    Mr. Mihm. We still need to look into that, Mr. Chairman.
    Mr. Miller. One response to Mrs. Maloney's proposed bill. I 
do support Mrs. Meeks' bill allowing people on welfare to work. 
However, the reaction we are receiving is that once we passed 
welfare reform in 1996, and it has had a great deal of success, 
one of the ideas is that we allow States to make decisions. And 
if we start opening it up and mandating things, there is real 
concern by many that we are breaking that original agreement. 
That is the concern that we are having.
    I am glad to hear you say that some States are looking at 
the TANF requirements to make it possible. I understand the 
concerns about mandating something out of Washington.
    In some areas like working military--INS and IRS people 
cannot work for the census, for good reason. And the same way 
with military, so we have to be careful with any current 
Federal employees.
    Let me ask two more questions. You mentioned in your 
testimony that there have been multiple delays in the mailing 
of both recruiting and teaching material for the Census in 
Schools Program since early fall. What is the cause of these 
delays, could they have been prevented, and what do you feel 
the impacts of the delays will be? I have enjoyed the 
opportunity to go to schools, and I think it is a good program. 
What are the delays and why?
    Mr. Mihm. The story of the delays is--it is a long and 
complex one that we won't go into at this time. We are still 
trying to disentangle it from the Bureau. Robert has focused on 
this.
    Mr. Goldenkoff. The cause of the delays, as Chris said, is 
unclear. I think it is something that the Bureau would like to 
know as well. We are still trying to unravel it. We do know 
first that there were multiple actors involved. There was 
Scholastic, the company that was responsible for creating the 
material. There was another contractor which was responsible 
for distributing the material. There was the Government 
Printing Office, and there was the Bureau itself. So there was 
a web of these different actors involved that were not always 
going in the same direction.
    In October 1999, the distributor ran out of some of the 
teacher kits, and you have probably seen them, they are very 
eyecatching and glossy, and the local partners we have spoken 
to have all given them high marks. The Bureau was not 
immediately notified that the distributor had run out of some 
of the teacher kits.
    In the meantime, in fall 1999, there were some delays in 
developing some of the materials that were used for the full 
recruiting package that went out to the principals. There was 
one period of recruiting in the spring of 1999 when teachers in 
hard-to-enumerate areas were invited to participate in the 
program; but then there was a second mailing to principals and 
others which was supposed to take place in September. Because 
of the delays within Scholastic, that mailing did not go out 
until December 1999. That is the framework for delays.
    Some of those--the problem was cleared up. As of mid-
December, the distributor resumed filling orders for the 
teaching kits, and principals and others started to get their 
kits beginning in January.
    As was said earlier, the turnaround time is now 2 to 4 
weeks. As to whether they get them in time, it depends partly 
on when the material is requested. We are in that 2 to 4-week 
timeframe right now. But also, I should say that the material 
is available off the Bureau's website. It can be downloaded; 
however, it is not the same level of quality. That is one of 
the local Complete Count Committees did, they actually 
downloaded it.
    Mr. Miller. Thank you. I am sorry that the information is 
not getting out as quickly as we had hoped. We are big 
supporters of the Census in School Program. Mr. Bass has gone 
to schools, Mrs. Maloney has, and I have, and I know that they 
have been very positively received by students, and they 
hopefully get their parents motivated.
    One final question, and you will be back again next month. 
Would you describe what type of oversight the GAO has planned 
for the next 6 months?
    Mr. Mihm. Subject to your approval, because we are a staff 
agency of the Congress, and so we work on your behalf, but over 
the next several weeks, as we ramp up for nonresponse followup, 
we will be taking full advantage of the access to information 
that this subcommittee has been helping us secure in focusing 
on mail response rates by local census office, looking and 
comparing that to where they are on their recruitment efforts, 
and trying to get a sense is there a subset of census offices 
where we are going to have the greatest trouble in meeting 
schedule and data quality. And, Mr. Chairman, you have been 
particularly clear in making sure that we are focused on proxy 
data.
    We will also be looking very closely at the ACE. We are 
looking at a series of key operational indicators that will 
tell us and hopefully inform the subcommittee on how the ACE is 
going while it is going on. One of the things that was a bit 
problematic last time, that is in 1990, was that we only get a 
sense of the quality of the ACE long after a decision has been 
made to adjust--in that case, obviously, not to adjust--census 
data, after much of the interest has dissipated and the 
public's attention goes on to other things. Only then do we get 
a full view of the quality of the adjusted number. We are going 
to be looking at operational indicators at the ACE. We fully 
expect, putting my colleague on the hook here, that we will 
continue to look very, very closely at data processing 
operations and following up on these reports as they become 
available from the Census Bureau and seeing how they work, and 
I guess at the largest sense being available for the 
subcommittee to look into things that can best support you in 
your oversight efforts.
    Mr. Miller. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Census in the Schools is one of our favorite 
programs. I have gone to a number of schools and had lesson 
plans with students. It is inspiring to watch them learn about 
the census and informing their own families about the census 
and its importance.
    Weren't the delays as a result of the decision really to 
reach out to 100 percent of the schools, not just 40 percent of 
the schools? Wasn't that one of the reasons for the delays? But 
I just want to make clear that there are no continuing problems 
now, are there, with Census in the Schools?
    Mr. Mihm. Let me deal with the second part and ask Robert 
to respond to the first.
    Our information from the people that are running the Census 
in Schools Programs is that they are still experiencing these 
delays in getting the kits. If you are looking at a 4-week 
delay at this point, it is not going to make sense for a 
teacher to submit a request for a kit. It is in response to 
these delays that some of the Complete Count Committees and 
regional census staff that we have talked to have been taking 
action, either downloading the information off of the Internet 
in the case of the Dade County Complete Count Committee. They 
were disappointed. They said, we basically missed the window of 
opportunity in Dade County for Census in the Schools to be 
effective. So there is still a bit of a delay.
    The Census Bureau has made clear to us that they will 
continue to process any requests as soon as they can as long as 
they have kits. So there is no drop-dead deadline that requests 
must be in by. We can still hope for some response or kits to 
be met out there through nonresponse followup.
    Mr. Goldenkoff. The other part of your question as to the 
reason for what--the expansion of the program, we are still 
looking into that.
    Mrs. Maloney. Well, I want to go back to the recruitment 
challenge and really to compliment GAO not with just coming 
forward with rhetoric, but with concrete proposals that we in 
Congress and our communities can enact to increase the pool of 
people that can go out and be enumerators and help get the 
count.
    The chairman said we should not interfere with the States, 
but the census is a Federal program. It is a Federal project. 
It is not about politics, it is about people and making sure 
that every person literally counts.
    We have heard from GAO concrete examples of how we can have 
a contingency plan to help get the count up and to make sure 
that the recruitment levels are met by allowing welfare 
recipients to have these jobs and not lose their TANF benefits, 
and by allowing military personnel to work for the census. 
These are important contingencies, and I feel we should act on 
them because we know what is at stake.
    We know in the last census 8 million Americans were missed, 
and over 4 million were counted twice, and we also know that 
there is a disturbing civil rights trend that the people that 
are missed are overwhelmingly the poor in rural and urban 
areas, African-Americans, Latinos, Asians, Native Americans, 
children. These are the people that the Census Bureau, the 
scientists have told us are overwhelmingly missed, and it seems 
to me going back to the stated purpose of hiring from 
neighborhoods, in these poor neighborhoods a very likely labor 
pool would be welfare recipients who could go out and get job 
experience to help them move from welfare to permanent work, 
but also be part of helping their neighbors and their 
communities get an accurate count, because this census is 
really the basis of virtually all demographic information that 
is used not only in government, but by journalists and 
community leaders, educators, policymakers, and businesspeople 
when they plan where they should put their businesses.
    Everyone relies on accurate census data, so I really--
although we usually agree on many things, I really feel that we 
should on a Federal level act since the Federal census is a 
Federal program and so much is at stake, literally $2 trillion 
over the next 10 years, literally dollars that are needed for 
schools and emergency response, for education. We should 
followup on GAO's concrete proposals that they put before us on 
ways to assist the professionals at the Census Bureau in 
reaching their recruitment levels.
    That's my last question if this is the last round. If not, 
I have a lot more to say.
    Mr. Miller. We all have the same goal and objective: to 
have the best count possible and have, in effect, no 
differential undercount. The Bureau has developed a plan to 
count those undercounted populations. We are anxious for the 
results.
    We have been very supportive of the total dollars spent on 
the census. It is going to cost $6.8 billion. My understanding 
is that--I know that the Bureau has been working very closely 
with the welfare-to-work population. They developed a program 
with Goodwill. My understanding is that some 37 States and the 
Virgin Islands have granted exemptions, so we are moving in the 
right direction. I feel confident we are going to have a good 
census.
    We appreciate your oversight responsibilities. I am happy 
to see that there has been increased transparency made 
available through the Census Bureau, and I look forward to 
hearing that from all of the other agencies involved. Thank you 
for being here today.
    Mr. Mihm. Thank you for your efforts on the access issues, 
Mr. Chairman.
    Mr. Miller. I ask unanimous consent that all Members' and 
witnesses' written opening statements be included in the 
record. Without objection, so ordered.
    In case there are additional questions that Members may 
have, I ask unanimous consent that the record remain open for 2 
weeks for Members to submit questions and for the witnesses to 
submit written answers as soon as practicable.
    The meeting is adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]


</pre></body></html>
